     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL


                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, SW, Suite 3T41
                                                                          Atlanta, GA 30303

September 10, 2010


Report Number: A-04-10-06125

Ms. Emma Forkner
Medicaid Director
Department of Health & Human Services
P. O. Box 8206
1801 Main Street
Columbia, SC 29201-8206

Dear Ms. Forkner:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Settlement of the Medical University of
South Carolina for Fiscal Year Ended June 30, 2008. We will forward a copy of this report to
the HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Andrew Funtal, Audit Manager, at (404) 562-7762 or through email at
Andrew.Funtal@oig.hhs.gov. Please refer to report number A-04-10-06125 in all
correspondence.

                                             Sincerely,



                                             /Peter J. Barbera/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Emma Forkner


Direct Reply to HHS Action Official:

Ms. Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
   Department of Health & Human Services
              OFFICE OF 

         INSPECTOR GENERAL 





REVIEW OF MEDICAID SETTLEMENT OF 

THE MEDICAL UNIVERSITY OF SOUTH 

 CAROLINA FOR FISCAL YEAR ENDED 

          JUNE 30, 2008 





                         Daniel R. Levinson

                          Inspector General 


                          September 2010

                           A-04-10-06125 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                   EXECUTIVE SUMMARY 


BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Inpatient Medicaid Services

The Social Security Act, section 1905(a) (1), requires States to provide inpatient hospital
services for Medicaid recipients. Federal regulations (42 CFR § 440.10(a)) define inpatient
hospital services as items and services ordinarily furnished by the hospital for the care and
treatment of inpatients under the direction of a physician or dentist.

South Carolina Medicaid Program

In the State of South Carolina, the Department of Health & Human Services (the State agency)
administers the Medicaid program. The agency’s Medicaid Provider Manual for Hospital
Services defines methods and requirements for Medicaid payments. For inpatient hospital
services, the State agency uses a prospective payment system based on hybrid payment
methodologies. The payment system reimburses hospitals either an amount per discharge (per
case) or a per diem rate. The diagnosis related group (DRG) determines which method of
reimbursement is used to reimburse the hospital.

For discharges paid by the per case method, the State agency uses specific relative weights and
rates. The relative weights are established by comparing charges for each DRG category with
charges for all categories in the State agency’s historical Medicaid claims database. A base rate,
calculated by a statewide average per case rate, is assigned to each DRG. The base rate is then
multiplied by the relative weight to establish the base payment for each DRG. Additional
factors, including the length of stay, transfers, and cost outliers, increase the base payment.

For discharges paid by the per diem method, statewide DRG-specific per diem rates are
established for the following categories of hospitals: teaching hospitals with intern/resident
programs, teaching hospitals without intern/resident programs, and non-teaching hospitals.
Hospitals receive the appropriate per diem rate times the number of days of stay, subject to
defined limits.

The State agency uses Medicaid charges and cost-to-charge ratios from Medicare cost reports to
complete the annual retrospective interim Medicaid cost settlement.



                                                 i
Medical University of South Carolina

The Medical University of South Carolina (MUSC) is an academic health science center with a
700-bed hospital and 6 colleges that train approximately 2600 health professionals per year. As
an academic medical center or teaching hospital, MUSC annually records more than one million
patient encounters.

OBJECTIVE

Our objective was to ensure that MUSC received Medicaid inpatient payments in accordance
with applicable Federal and State laws, regulations, and guidance.

SUMMARY OF FINDING

MUSC generally received Medicaid inpatient payments in accordance with applicable Federal
and State Laws, regulations, and guidance. However, from our random sample of 100 MUSC
paid claims, 1 claim was not in accordance with State Medicaid criteria. This erroneous claim
resulted in an excessive outpatient charge of $2,585.

Although the Medicaid Provider Manual for Hospital Services requires that all outpatient
services rendered during an inpatient stay be included in the inpatient DRG payment, MUSC
billed the State agency for both inpatient and outpatient procedures on the same date. This
erroneous claim occurred because of a clerical error. Subsequently, MUSC installed an edit in
its electronic billing system to prevent inpatient and outpatient claims from being billed for the
same date of service.

RECOMMENDATION

We recommend that the State agency direct MUSC to file a corrected bill rescinding the
improper outpatient claim.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our finding and agreed
to follow up with MUSC to ensure that the claim has been corrected and the overpayment has
been refunded.

The State agency’s comments are included in their entirety as Appendix B.

MEDICAL UNIVERSITY OF SOUTH CAROLINA COMMENTS

In written comments on our draft report, MUSC concurred with our finding.

MUSC’s comments are included in their entirety as Appendix C.




                                                 ii
                                                    TABLE OF CONTENTS


                                                                                                                                 Page

INTRODUCTION..............................................................................................................1 


      BACKGROUND ..........................................................................................................1 

        Medicaid Program....................................................................................................1              

        Inpatient Medicaid Services.....................................................................................1 

        South Carolina Medicaid Program...........................................................................1 

        Medical University of South Carolina .....................................................................2 


      OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................2 

        Objective ..................................................................................................................2      

        Scope........................................................................................................................2 

        Methodology ............................................................................................................2          


FINDING AND RECOMMENDATION.........................................................................3 


      INPATIENT HOSPITAL SERVICES .........................................................................4 


      RECOMMENDATION ................................................................................................4 


      STATE AGENCY COMMENTS.................................................................................4 


      MEDICAL UNIVERSITY OF SOUTH CAROLINA COMMENTS .........................4 


APPENDIX

           A: SAMPLING METHODOLOGY

           B: STATE AGENCY COMMENTS

           C: MEDICAL UNIVERSITY OF SOUTH CAROLINA COMMENTS




                                                                      iii
                                       INTRODUCTION 


BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Inpatient Medicaid Services

The Social Security Act, section 1905(a)(1), requires States to provide inpatient hospital services
for Medicaid recipients. Federal regulations (42 CFR § 440.10(a)) define inpatient hospital
services as items and services ordinarily furnished by the hospital for the care and treatment of
inpatients under the direction of a physician or dentist.

South Carolina Medicaid Program

In the State of South Carolina, the Department of Health & Human Services (the State agency)
administers the Medicaid program. The agency’s Medicaid Provider Manual for Hospital
Services defines methods and requirements for Medicaid payments. For inpatient hospital
services, the State agency uses a prospective payment system based on hybrid payment
methodologies. The payment system reimburses hospitals either an amount per discharge (per
case) or a per diem rate. The diagnosis related group (DRG) determines which method of
reimbursement is used to reimburse the hospital.

For discharges paid by the per case method, the State agency uses specific relative weights and
rates. The relative weights are established by comparing charges for each DRG category with
charges for all categories in the State agency’s historical Medicaid claims database. A base rate,
calculated by a statewide average per case rate, is assigned to each DRG. The base rate is then
multiplied by the relative weight to establish the base payment for each DRG. Additional
factors, including the length of stay, transfers, and cost outliers, increase the base payment.

For discharges paid by the per diem method, statewide DRG-specific per diem rates are
established for the following categories of hospitals: teaching hospitals with intern/resident
programs, teaching hospitals without intern/resident programs, and non-teaching hospitals.
Hospitals receive the appropriate per diem rate times the number of days of stay, subject to
defined limits.

The State agency uses Medicaid charges and cost-to-charge ratios from Medicare cost reports to
complete the annual retrospective interim Medicaid cost settlement.



                                                 1

Medical University of South Carolina

The Medical University of South Carolina (MUSC) is an academic health science center with a
700-bed hospital and 6 colleges that train approximately 2600 health professionals per year. As
an academic medical center or teaching hospital, MUSC annually records more than one million
patient encounters.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to ensure that MUSC received Medicaid inpatient payments in accordance
with applicable Federal and State laws, regulations, and guidance.

Scope

Our review covered 9,288 Medicaid inpatient paid claims and related charges for MUSC for the
cost reporting period from July 1, 2007, to June 30, 2008.

We did not assess the overall internal control structure of the State agency or MUSC. Rather, we
limited our internal control review to the objective of our audit. In March 2010, we performed
fieldwork at: the MUSC offices located in Charleston, South Carolina; the Medicaid State
agency in Columbia, South Carolina; and the Medicare Fiscal Intermediary offices in Columbia,
South Carolina.

Methodology

To accomplish our objective, we:

       reviewed applicable Federal, and State laws, regulations, and guidance;

       reviewed the State agency’s policies, procedures, and hybrid DRG payment
        methodologies for the determination of Medicaid payments;

       reviewed the State Medicaid plan for Inpatient Hospital Services;

       interviewed State agency officials to obtain insight on payment methodologies and the
        finalization process of hospital Medicaid inpatient settlements;

       performed a risk analysis of MUSC’s cost report by comparing revenue and cost center
        groupings to ensure consistency with the prior year;

       reviewed 9,288 Medicaid inpatient payments, totaling more than $97 million (Appendix
        A) to MUSC for the cost reporting period July 1, 2007, through June 30, 2008, to identify
        variances and further assess risks;


                                                2

   	 selected the inpatient payment category for further review based on our risk analysis;

   	 selected a random sample of 100 Medicaid claims totaling approximately $1.2 million
      from the period July 1, 2007, to June 30, 2008;

   	 compared the 100 sampled claims to the Medicaid Statistical Information System
      database to determine whether any inpatient claims with self-care discharge codes were
      admitted to other hospitals on the same day as discharge;

   	 compared the 100 sampled claims to the Social Security Death Index to ensure that no
      services were billed after death;

   	 reviewed the 100 sampled claims for outpatient charges during the inpatient dates of
      service;

   	 reviewed the associated hospital accounting records for the 100 sampled claims and
      verified the accuracy of the DRG payment calculations used by the State agency to
      determine payment for these claims;

   	 computed the payments of selected sample items to determine whether the Medicaid
      payments were based on the published hybrid payment calculations defined by the State
      agency; and

   	 discussed our results with MUSC officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                            FINDING AND RECOMMENDATION

MUSC generally received Medicaid inpatient payments in accordance with applicable Federal
and State Laws, regulations, and guidance. However, from our random sample of 100 MUSC
paid claims, 1 claim was not in accordance with State Medicaid criteria. This erroneous claim
resulted in an excessive outpatient charge of $2,585.

Although the Medicaid Provider Manual for Hospital Services requires that all outpatient
services rendered during an inpatient stay be included in the inpatient DRG payment, MUSC
billed the State agency for both inpatient and outpatient procedures on the same date. This
erroneous claim occurred because of a clerical error. Subsequently, MUSC installed an edit in
its electronic billing system to prevent inpatient and outpatient claims from being billed for the
same date of service.



                                                 3

INPATIENT HOSPITAL SERVICES

Section 2 of South Carolina’s Medicaid Provider Manual for Hospital Services states that all
services rendered during an inpatient stay are included in the DRG reimbursement. Accordingly,
all outpatient services that coincide with an inpatient admission are deemed to be inpatient
services, regardless of relation to the inpatient admission, and should be included in the DRG
payment.

RECOMMENDATION

We recommend that the State agency direct MUSC to file a corrected bill rescinding the
improper outpatient claim.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our finding and agreed
to follow up with MUSC to ensure that the claim has been corrected and the overpayment has
been refunded.

The State agency’s comments are included in their entirety as Appendix B.

MEDICAL UNIVERSITY OF SOUTH CAROLINA COMMENTS

In written comments on our draft report, MUSC concurred with our finding.

MUSC’s comments are included in their entirety as Appendix C.




                                               4

APPENDIXES 

                      APPENDIX A: SAMPLING METHODOLOGY

POPULATION

The population consisted of The Medical University of South Carolina inpatient claims paid to
the South Carolina Department of Health & Human Services with dates of service from July 1,
2007, through June 30, 2008.

SAMPLING FRAME

The sampling frame was an Excel database containing 9,288 paid inpatient claims totaling
$97,080,793 with dates of service from July 1, 2007, through June 30, 2008.

SAMPLE UNIT

The sample unit was an inpatient paid claim.

SAMPLE DESIGN

We used a simple random sample of paid claims.

SAMPLE SIZE

We selected a sample of 100 paid claims.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OIG/OAS), statistical software.

METHOD FOR SELECTING SAMPLE

We consecutively numbered the inpatient paid claims in our sampling frame from 1 to 9,288.
After generating 100 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

Our sample contained only one error. Per OAS policy, we made no estimate of unallowable
payments.
                          APPENDIX B: STATE AGENCY COMMENTS
	




                               ~tat£ of ~out~ {1larolina
                              Ilcpartmcnt of l1caIt~ ano lIuman ~crllircs
Mark Sanford                                                                               Emma Forkner
 Governor                                                                                    Director
                                         August 12, 2010




      Mr. Peter J. Barbera
      Regional Inspector General for Audit Services
      U. S. Department of Health and Human Services
      Office of Inspector General
      Office of Audit Services, Region IV
      61 Forsyth Street, SW, Suite 3T41
      Atlanta, Georgia 30303

      Report Number: A-04-10-06125

      Dear Mr. Barbera:

      We have reviewed the report and concur with the audit finding for the Review of Medicaid
      Settlement of the Medical University of South Carolina (MUSC) for Fiscal Year Ended June
      30, 2008 regarding the erroneous outpatient claim. We will follow up with MUSe to assure
      that the claim has been corrected and the overpayment has been refunded.

      If you have any questions or need additional information, please let me know.




                                             t::~
                                              Emma Forkner
                                              Director

      EF/wh
                             APPENDIX C: MEDICAL UNIVERSITY OF

                                SOUTH CAROLINA COMMENTS 
                                                      w. Stuart Smith, FACHE
                                                                                                      Vice President for C/illical Operations

      1\1USC Health
MEDICAL UNIVERSITY of SOUTH CAROLINA
                                                                                                                       6- Executive Director
                                                                                                                     MUSC Medical Center
                                                                                                                         smithstu@musc.edu


                                                                                                                       169 Ashley Avenue
                                                                                                                            Suite H 205D
                                                                                                                                 MSC332
                                                                                                               Charleston SC 29425-3320
                                                                                                                        Tel 843 792 4000
                                                                                                                        Fax 843792 6682
                                                                                                                          www.musc.edu



                                                    August 25, 2010

         Mr. Peter J. Barbera
         Regional Inspector General for Audit Services
         Department of Health & Human Services
         Office of the Inspector General
         Office of Audit Services, Region IV
         61 Forsyth Street, SW, Suite 3T41
         Atlanta, GA 30303

                Report Number:           A-04-10-06125

         Dear Mr. Barbera:

                We are in receipt of your letter dated August 12,2010 along with the draft report
        entitled Review of Medicaid Settlement of the Medical University of South Carolina for
        Fiscal Year Ended June 30, 2008. We have reviewed the findings and concur with this
        result.

               If we can be of further assistance, please do not hesitate to contact us. With kind
        regards, I am

                                                                  Sincerely,



                                                                  Executive Director



                      I




                                  'iln equal opportunity employer. promoting workplace diversity. "
